Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




      RISK ADJUSTMENT
     DATA VALIDATION OF
     PAYMENTS MADE TO
    PARAMOUNT CARE, INC.,
   FOR CALENDAR YEAR 2007
  (CONTRACT NUMBER H3653)

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                 Daniel R. Levinson
                                                  Inspector General

                                                   September 2012
                                                    A-05-09-00044
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY


BACKGROUND

Under the Medicare Advantage (MA) program, the Centers for Medicare & Medicaid Services
(CMS) makes monthly capitated payments to MA organizations for beneficiaries enrolled in the
organizations’ health care plans. Subsections 1853(a)(1)(C) and (a)(3) of the Social Security Act
require that these payments be adjusted based on the health status of each beneficiary. CMS uses
the Hierarchical Condition Category (HCC) model (the CMS model) to calculate these risk-
adjusted payments.

Under the CMS model, MA organizations collect risk adjustment data, including beneficiary
diagnoses, from hospital inpatient facilities, hospital outpatient facilities, and physicians during a
data collection period. MA organizations identify the diagnoses relevant to the CMS model and
submit them to CMS. CMS categorizes the diagnoses into groups of clinically related diseases
called HCCs and uses the HCCs and demographic characteristics to calculate a risk score for
each beneficiary. CMS then uses the risk scores to adjust the monthly capitated payments to MA
organizations for the next payment period.

Paramount Care, Inc. (Paramount), is an MA organization owned by ProMedica Health. For
calendar year (CY) 2007, Paramount had one contract with CMS, contract H3653, which we
refer to as “the contract.” Under the contract, CMS paid Paramount approximately $134 million
to administer health care plans for approximately 14,000 beneficiaries.

OBJECTIVE

Our objective was to determine whether the diagnoses that Paramount submitted to CMS for use
in CMS’s risk score calculations complied with Federal requirements.

SUMMARY OF FINDINGS

The diagnoses that Paramount submitted to CMS for use in CMS’s risk score calculations did not
always comply with Federal requirements. For 56 of the 100 beneficiaries in our sample, the risk
scores calculated using the diagnoses that Paramount submitted were valid. The risk scores for
the remaining 44 beneficiaries were invalid because the diagnoses were not supported for 1 or
more of the following reasons:

   •   The documentation did not support the associated diagnosis.

   •   The documentation did not include the provider’s signature or credentials.

   •   Paramount did not provide any documentation to support the associated diagnosis.

   •   The diagnosis was unconfirmed.



                                                  i
Paramount did not have written policies and procedures for obtaining, processing, and submitting
diagnoses to CMS until after our audit period. Furthermore, Paramount’s practices were not
effective in ensuring that the diagnoses that it submitted to CMS complied with the requirements
of the 2006 Risk Adjustment Data Basic Training for Medicare Advantage Organizations
Participant Guide (the 2006 Participant Guide) and the 2007 Risk Adjustment Data Basic
Training for Medicare Advantage Organizations Participant Guide (the 2007 Participant Guide).
Paramount officials stated that providers were responsible for the accuracy of the diagnoses that
Paramount submitted to CMS.

As a result of these unsupported diagnoses, Paramount received $205,534 in overpayments from
CMS. Based on our sample results, we estimated that Paramount was overpaid approximately
$18,216,541 in CY 2007.

RECOMMENDATIONS

We recommend the following:

   •   Paramount should refund to the Federal Government $205,534 in overpayments
       identified for the sampled beneficiaries.

   •   Paramount should work with CMS to determine the correct contract-level adjustment for
       the projected $18,216,541 of overpayments. (This amount represents our point estimate.
       However, it is our policy to recommend recovery of overpayments at the lower limit of
       the 90-percent confidence interval, which is $13,572,796. See Appendix B.)

   •   Paramount should monitor the effectiveness of its newly developed written policies and
       procedures for obtaining, processing, and submitting valid risk adjustment data.

   •   Paramount should improve its current practices to ensure compliance with Federal
       requirements.

PARAMOUNT COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Paramount stated that it had “commenced and
strengthened several initiatives” that address our recommendations to monitor the effectiveness
of its newly developed written policies and procedures and to improve its current practices for
ensuring compliance with Federal requirements. However, Paramount disagreed with our
recommended refund to the Federal Government and contested several HCCs that we questioned
in our draft report. After considering Paramount’s written comments, we requested, and
Paramount provided, additional documentation in support of its written comments. We provided
this documentation to our medical review contractor and revised our findings using the results of
this third medical review.

In preparing our final report, we also considered the written comments of other MA
organizations included in this series of audits. Some MA organizations stated that our audit
results did not account for error rates inherent in Medicare fee-for-service (FFS) data,

                                                ii
specifically the disparity between FFS claim data and FFS medical records data and its potential
impact on MA payments. Although an analysis to determine the potential impact of error rates
inherent in FFS data on MA payments was beyond the scope of our audit, we acknowledge that
CMS is studying this issue and its potential impact on audits of MA organizations. Therefore,
because of the potential impact of these error rates on the CMS model that we used to recalculate
MA payments for the beneficiaries in our sample, we (1) modified one recommendation to have
Paramount refund only the overpayments identified for the sampled beneficiaries rather than
refund the projected overpayments and (2) added a recommendation that Paramount work with
CMS to determine the correct contract-level adjustments for the projected overpayments.

Paramount’s comments are included in their entirety as Appendix D.




                                               iii
                                                 TABLE OF CONTENTS

                                                                                                                                    Page


INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Advantage Program .............................................................................1
              Risk-Adjusted Payments ......................................................................................1
              Federal Requirements ..........................................................................................1
              Paramount Care, Inc.............................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          FEDERAL REQUIREMENTS ........................................................................................5

          UNSUPPORTED HIERARCHICAL CONDITION CATEGORIES .............................6
               Unsupported Diagnosis Coding ...........................................................................6
               Missing Signatures and Credentials .....................................................................6
               No Documentation Provided................................................................................7
               Unconfirmed Diagnoses.......................................................................................7

          CAUSES OF OVERPAYMENTS ...................................................................................7

          ESTIMATED OVERPAYMENTS .................................................................................7

          RECOMMENDATIONS .................................................................................................8

          PARAMOUNT COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................8
               Audit Procedures ..................................................................................................9
               Diagnosis Coding .................................................................................................9
               Unsupported Codes ..............................................................................................10
               Signatures/Credentials.... .....................................................................................11
               No Documentation Provided................................................................................12
               Sample Selection..................................................................................................12
               Refund Recommendation Based on Unconfirmed Discrepancies .......................12




                                                                    iv
APPENDIXES


    A: SAMPLE DESIGN AND METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: DOCUMENTATION ERRORS IN SAMPLE

    D: PARAMOUNT COMMENTS




                               v
                                             INTRODUCTION

BACKGROUND

Medicare Advantage Program

The Balanced Budget Act of 1997, P.L. No. 105-33, established Medicare Part C to offer
beneficiaries managed care options through the Medicare+Choice program. Section 201 of the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
revised Medicare Part C and renamed the program the Medicare Advantage (MA) program.
Organizations that participate in the MA program include health maintenance organizations,
preferred provider organizations, provider-sponsored organizations, and private fee-for-service
(FFS) plans. The Centers for Medicare & Medicaid Services (CMS), which administers the
Medicare program, makes monthly capitated payments to MA organizations for beneficiaries
enrolled in the organizations’ health care plans (beneficiaries).

Risk-Adjusted Payments

Subsections 1853(a)(1)(C) and (a)(3) of the Social Security Act require that payments to MA
organizations be adjusted based on the health status of each beneficiary. In calendar year
(CY) 2004, CMS implemented the Hierarchical Condition Category (HCC) model (the CMS
model) to calculate these risk-adjusted payments.

Under the CMS model, MA organizations collect risk adjustment data, including beneficiary
diagnoses, from hospital inpatient facilities, hospital outpatient facilities, and physicians during a
data collection period. 1 MA organizations identify the diagnoses relevant to the CMS model and
submit them to CMS. CMS categorizes the diagnoses into groups of clinically related diseases
called HCCs and uses the HCCs, as well as demographic characteristics, to calculate a risk score
for each beneficiary. CMS then uses the risk scores to adjust the monthly capitated payments to
MA organizations for the next payment period. 2

Federal Requirements

Regulations (42 CFR § 422.310(b)) require MA organizations to submit risk adjustment data to
CMS in accordance with CMS instructions. CMS issued instructions in its 2006 Risk Adjustment
Data Basic Training for Medicare Advantage Organizations Participant Guide (the 2006
Participant Guide) that provided requirements for submitting risk adjustment data for the
CY 2006 data collection period. CMS issued similar instructions in its 2007 Risk Adjustment
Data Training for Medicare Advantage Organizations Participant Guide (the 2007 Participant
Guide).


1
 Risk adjustment data also include health insurance claim numbers, provider types, and the “from” and “through”
dates for the service.
2
 For example, CMS used data that MA organizations submitted for the CY 2006 data collection period to adjust
payments for the CY 2007 payment period.

                                                        1
Diagnoses included in risk adjustment data must be based on clinical medical record
documentation from a face-to-face encounter; coded according to the International Classification
of Disease, Ninth Revision, Clinical Modification (ICD-9-CM) (the Coding Guidelines); assigned
based on dates of service within the data collection period; and submitted to the MA organization
from an appropriate risk adjustment provider type and an appropriate risk adjustment physician
data source. The 2006 and 2007 Participant Guides described requirements for hospital
inpatient, hospital outpatient, and physician documentation.

Paramount Care, Inc.

Paramount Care, Inc. (Paramount), is an MA organization owned by ProMedica Health. For
CY 2007, Paramount had one contract with CMS, contract H3653, which we refer to as “the
contract.” Under the contract, CMS paid Paramount approximately $134 million to administer
health care plans for approximately 14,000 beneficiaries.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the diagnoses that Paramount submitted to CMS for use
in CMS’s risk score calculations complied with Federal requirements.

Scope

Our review covered approximately $105 million of the CY 2007 MA organization payments that
CMS made to Paramount on behalf of 8,863 beneficiaries. These payments were based on risk
adjustment data that Paramount submitted to CMS for CY 2006 dates of service for beneficiaries
who (1) were continuously enrolled under the contract during all of CY 2006 and January of
CY 2007 3 and (2) had a CY 2007 risk score that was based on at least one HCC. We limited our
review of Paramount’s internal control structure to controls over the collection, processing, and
submission of risk adjustment data.

We asked Paramount to provide us with the one medical record that best supported the HCC(s)
that CMS used to calculate each risk score. If our review found that a medical record did not
support one or more assigned HCCs, we gave Paramount the opportunity to submit an additional
medical record for a second medical review.

We performed our fieldwork at Paramount in Maumee, Ohio, and at CMS in Baltimore,
Maryland, from October 2008 through December 2009.




3
 We limited our sampling frame to continuously enrolled beneficiaries to ensure that Paramount was responsible for
submitting the risk adjustment data that resulted in the risk scores covered by our review.

                                                        2
Methodology

To accomplish our objective, we did the following:

    •    We reviewed applicable Federal laws, regulations, and guidance regarding payments to
         MA organizations.

    •    We interviewed CMS officials to obtain an understanding of the CMS model.

    •    We obtained the services of a medical review contractor to determine whether the
         documentation that Paramount submitted supported the HCCs associated with the
         beneficiaries in our sample.

    •    We interviewed Paramount officials to gain an understanding of Paramount’s internal
         controls for obtaining risk adjustment data from providers, processing the data, and
         submitting the data to CMS.

    •    We obtained enrollment data, CY 2007 beneficiary risk score data, and CY 2006 risk
         adjustment data from CMS and identified 8,863 beneficiaries who (1) were
         continuously enrolled under the contract during all of CY 2006 and January of CY 2007
         and (2) had a CY 2007 risk score that was based on at least 1 HCC.

    •    We selected a simple random sample of 100 beneficiaries with 254 HCCs. (See
         Appendix A for our sample design and methodology.) For each sampled beneficiary, we:

             o    analyzed the CY 2007 beneficiary risk score data to identify the HCC(s) that
                  CMS assigned;

             o    analyzed the CY 2006 risk adjustment data to identify the diagnosis or diagnoses
                  that Paramount submitted to CMS associated with the beneficiary’s HCC(s);

             o    requested that Paramount provide us with the one medical record that, in
                  Paramount’s judgment, best supported the HCC(s) that CMS used to calculate the
                  beneficiary’s risk score;

             o    obtained Paramount’s certification that the documentation provided represented
                  “the one best medical record to support the HCC”; 4 and

             o    submitted Paramount’s documentation and HCCs for each beneficiary to our
                  medical review contractor for a first review and requested additional


4
  The 2006 Participant Guide, sections 8.2.3 and 8.2.3.1, and the 2007 Participant Guide, sections 7.2.3 and 7.2.3.1,
required plans to select the “one best medical record” to support each HCC and indicated that the best medical
record may include a range of consecutive dates (if the record is from a hospital inpatient provider) or one date (if
the record is from a hospital outpatient or physician provider).


                                                          3
                 documentation from Paramount for a second review if the contractor found that
                 documentation submitted during the first round did not support the HCCs.

    •   For the HCCs we questioned in our draft report with which Paramount disagreed, 5 we
        requested additional documentation and/or explanations from Paramount and submitted
        that information to our medical review contractor for a third review.

    •   For the sampled beneficiaries that we determined to have unsupported HCCs, we (1) used
        the medical review results to adjust the beneficiaries’ risk scores, (2) recalculated
        CY 2007 payments using the adjusted risk scores, and (3) subtracted the recalculated
        CY 2007 payments from the actual CY 2007 payments to determine the overpayments
        and underpayments made on behalf of the beneficiaries.

    •   We estimated the total value of overpayments based on our sample results. (See
        Appendix B for our sample results and estimates.)

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The diagnoses that Paramount submitted to CMS for use in CMS’s risk score calculations did not
always comply with Federal requirements. For 56 of the 100 beneficiaries in our sample, the risk
scores calculated using the diagnoses that Paramount submitted were valid. The risk scores for
the remaining 44 beneficiaries were invalid because the diagnoses were not supported for 1 or
more of the following reasons:

    •   The documentation did not support the associated diagnosis.

    •   The documentation did not include the provider’s signature or credentials.

    •   Paramount did not provide any documentation to support the associated diagnosis.

    •   The diagnosis was unconfirmed. 6



5
 Paramount disagreed with 41 of the 81 HCCs in our draft report. Of the 41 HCCs, we accepted attestations on
10 HCCs and submitted the remaining 31 HCCs for a third medical review.
6
 The 2006 and 2007 Participant Guides state that physicians and hospital outpatient departments may not code
diagnoses documented as “probable,” “suspected,” “questionable,” “rule out,” or “working.” The Participant Guides
consider these diagnoses as unconfirmed. (See section 5.4.2 of the 2006 Participant Guide and section 6.4.2 of the
2007 Participant Guide.)

                                                        4
Paramount did not have written policies and procedures for obtaining, processing, and submitting
diagnoses to CMS until after our audit period. Furthermore, Paramount’s practices were not
effective in ensuring that the diagnoses it submitted to CMS complied with the requirements of
the 2006 and 2007 Participant Guides. Paramount officials stated that providers were
responsible for the accuracy of the diagnoses that Paramount submitted to CMS.

As a result of these unsupported diagnoses, Paramount received $205,534 in overpayments from
CMS. Based on our sample results, we estimated that Paramount was overpaid approximately
$18,216,541 in CY 2007.

FEDERAL REQUIREMENTS

Regulations (42 CFR § 422.310(b)) state: “Each MA organization must submit to CMS (in
accordance with CMS instructions) the data necessary to characterize the context and purposes
of each service provided to a Medicare enrollee by a provider, supplier, physician, or other
practitioner. CMS may also collect data necessary to characterize the functional limitations of
enrollees of each MA organization.” The 2007 Participant Guide, section 8.7.3, and the 2006
Participant Guide, section 7.7.3, state that “MA organizations are responsible for the accuracy of
the data submitted to CMS.”

Pursuant to section 2.2.1 of the 2007 and 2006 Participant Guides, risk adjustment data
submitted to CMS must include a diagnosis. Pursuant to the 2007 Participant Guide,
section 7.1.4, and the 2006 Participant Guide, section 8.1.3, the diagnosis must be coded
according to the Coding Guidelines. Section III of the Coding Guidelines states that for each
hospital inpatient stay, the hospital’s medical record reviewer should code the principal diagnosis
and “… all conditions that coexist at the time of admission, that develop subsequently, or that
affect the treatment received and/or length of stay. Diagnoses that relate to an earlier episode
which have no bearing on the current hospital stay are to be excluded.” Sections II and III of the
Coding Guidelines state that “if the diagnosis documented at the time of discharge is qualified as
‘probable,’ ‘suspected,’ ‘likely,’ ‘questionable,’ ‘possible,’ or ‘still to be ruled out,’ code the
condition as if it existed or was established.”

Section IV of the Coding Guidelines states that for each outpatient and physician service, the
provider should “[c]ode all documented conditions that coexist at the time of the encounter/visit,
and require or affect patient care treatment or management.” The Coding Guidelines also state
that conditions should not be coded if they “… were previously treated and no longer exist.
However, history codes … may be used as secondary codes if the historical condition or family
history has an impact on current care or influences treatment.” Additionally, in outpatient and
physician settings, uncertain diagnoses, including those that are “probable,” “suspected,”
“questionable,” or “working,” should not be coded.

The 2007 Participant Guide, section 7.1.4, and the 2006 Participant Guide, section 8.1.3, require
that documentation support the diagnoses that MA organizations submit for use in CMS’s risk
score calculations. The documentation must include an acceptable physician signature and
specialty credentials. The 2007 Participant Guide, section 7.2.4.5, and the 2006 Participant
Guide, section 8.2.4.4, state: “[A]ll dates of service that are identified for review must be signed

                                                 5
(with credentials) and dated by the physician or an appropriate physician extender (e.g., nurse
practitioner).” Examples of acceptable physician signatures include handwritten signatures or
initials, signature stamps that comply with State regulations, and electronic signatures with
authentications by the respective providers. Typed names; signatures of nonphysicians or
nonphysician extenders (e.g., medical students); and signatures without credentials are
unacceptable for risk adjustment purposes.

UNSUPPORTED HIERARCHICAL CONDITION CATEGORIES

To calculate beneficiary risk scores and risk-adjusted payments to MA organizations, CMS must
first convert diagnoses to HCCs. During our audit period, Paramount submitted to CMS at least
one diagnosis associated with each HCC that CMS used to calculate each sampled beneficiary’s
risk score for CY 2007. The risk scores for 44 sampled beneficiaries were invalid because the
diagnoses that Paramount submitted to CMS (1) were not supported, (2) were missing signatures
or credentials, (3) had no documentation, and/or (4) were unconfirmed. Appendix C shows a
total of 76 errors associated with the 60 HCCs. These errors included unsupported diagnosis
coding, missing signatures and credentials, no documentation provided, and unconfirmed
diagnoses.

Unsupported Diagnosis Coding

The documentation that Paramount submitted to us for medical review did not support the
diagnoses associated with 46 HCCs.

For example, for one beneficiary, Paramount submitted the diagnosis code for “chronic airway
disease, not elsewhere classified.” CMS used the HCC associated with this diagnosis in
calculating the beneficiary’s risk score. However, the documentation that Paramount provided
indicated that the patient’s complaint was shoulder and back pain. The documentation indicated
a history of chronic obstructive pulmonary disease but did not indicate that the presence or
history of this condition affected the care, treatment, or management provided during the
encounter.

Missing Signatures and Credentials

Sixteen HCCs were unsupported because the documentation that Paramount provided did not
include the physicians’ signatures or credentials.

For example, for one beneficiary, Paramount submitted the diagnosis code for “congestive heart
failure, unspecified.” CMS used the HCC associated with this diagnosis in calculating the
beneficiary’s risk score. However, the documentation that Paramount submitted was not signed
by the provider and did not include the provider’s credentials.




                                                6
No Documentation Provided

Ten HCCs were unsupported because Paramount did not provide any documentation.

For example, for one beneficiary, Paramount submitted a diagnosis code for “diabetes with
neurologic or other specified manifestation.” CMS used the HCC associated with this diagnosis
in calculating the beneficiary’s risk score. However, Paramount officials indicated during our
review that they could not obtain any medical records to support the HCC.

Unconfirmed Diagnoses

Four HCCs were unsupported because the diagnoses submitted to CMS were unconfirmed.

For example, for one beneficiary, Paramount submitted a diagnosis code for “atrial fibrillation.”
CMS used the HCC associated with this diagnosis in calculating the beneficiary’s risk score.
The documentation that Paramount submitted noted “(?) A-fib, paroxysmal and ordered a Holter
Monitor for confirmation.” Diagnoses that are “probable,” “suspected,” “questionable,” or
“working” should not be coded.

CAUSES OF OVERPAYMENTS

During our audit period, Paramount did not have written policies and procedures for obtaining,
processing, and submitting risk adjustment data to CMS. Paramount officials informed us that
Paramount had since developed written policies and procedures, which were implemented on
July 1, 2009.

According to Paramount officials, Paramount had practices, including chart validation, to ensure
the accuracy of the diagnoses that it submitted to CMS. Chart validation is a review of
documentation to ensure that the diagnoses submitted to CMS are correctly coded. However,
Paramount officials stated that Paramount did not routinely use chart validation as a preventive
practice; instead, Paramount used chart validation as a response to external auditors’ requests for
documentation that best supported the diagnoses already submitted to CMS.

As demonstrated by the significant error rate found in our sample, Paramount’s practices were
not effective in ensuring that the diagnoses submitted to CMS complied with the requirements of
the 2006 and 2007 Participant Guides. Paramount officials stated that providers were
responsible for the accuracy of the diagnoses that Paramount submitted to CMS.

ESTIMATED OVERPAYMENTS

As a result of the unsupported diagnoses in our sample, Paramount received $205,534 in
overpayments from CMS. Based on our sample results, we estimated that Paramount was
overpaid approximately $18,216,541 in CY 2007. However, we acknowledge that CMS is
studying the potential impact of error rates inherent in FFS data on MA payments to MA
organizations. 7
7
    75 Fed. Reg. 19749 (April 15, 2010).

                                                 7
Therefore, because of the potential impact of these error rates on the CMS model that we used to
recalculate MA payments for the beneficiaries in our sample, we (1) modified one
recommendation to have Paramount refund only the overpayments identified for the sampled
beneficiaries rather than refund the projected overpayments and (2) added a recommendation that
Paramount work with CMS to determine the correct contract-level adjustments for the projected
overpayments.

RECOMMENDATIONS

We recommend the following:

     •   Paramount should refund to the Federal Government $205,534 in overpayments
         identified for the sampled beneficiaries.

     •   Paramount should work with CMS to determine the correct contract-level adjustment for
         the projected $18,216,541 8 of overpayments.

     •   Paramount should monitor the effectiveness of its newly developed written policies and
         procedures for obtaining, processing, and submitting valid risk adjustment data.

     •   Paramount should improve its current practices to ensure compliance with Federal
         requirements.

PARAMOUNT COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Paramount stated that it had “commenced and
strengthened several initiatives” that address our recommendations to monitor the effectiveness
of its newly developed written policies and procedures and to improve its current practices for
ensuring compliance with Federal requirements. However, Paramount disagreed with our
recommended refund to the Federal Government and contested 41 of the 81 HCCs that we
questioned in our draft report. After considering Paramount’s written comments, we requested,
and Paramount provided, additional documentation in support of its written comments. We
provided this documentation to our medical review contractor and revised our findings using the
results of this third medical review. 9

This report is part of a series of reviews conducted to determine whether diagnoses that MA
organizations submit to CMS for use in CMS’s risk score calculations complied with Federal
requirements. In preparing our final report, we considered the written comments of other MA
organizations 10 included in this series of audits. Some MA organizations stated that our audit
8
  This amount represents our point estimate. However, it is our policy to recommend recovery of overpayments at
the lower limit of the 90-percent confidence interval, which is $13,572,796. See Appendix B.
9
 Paramount disagreed with 41 of the 81 HCCs in our draft report. Of the 41 HCCs, we accepted attestations on
10 HCCs and submitted the remaining 31 HCCs for a third medical review.
10
  For example, see comments on Appendix D of Risk Adjustment Data Validation of Payments Made to PacifiCare
of Texas for Calendar Year 2007 (Contract Number H4590), A-06-09-00012, issued May 30, 2012.

                                                        8
results did not account for error rates inherent in Medicare FFS data, specifically the disparity
between FFS claim data and FFS medical records data and its potential impact on MA payments.
Although an analysis to determine the potential impact of error rates inherent in FFS data on MA
payments was beyond the scope of our audit, we acknowledge that CMS is studying this issue
and its potential impact on audits of MA organizations. 11 Therefore, because of the potential
impact of these error rates on the CMS model that we used to recalculate MA payments for the
beneficiaries in our sample, we (1) modified one recommendation to have Paramount refund
only the overpayments identified for the sampled beneficiaries rather than refund the projected
overpayments and (2) added a recommendation that Paramount work with CMS to determine the
correct contract-level adjustments for the projected overpayments.

Paramount’s comments, which we summarize below, are included in their entirety as
Appendix D.

Audit Procedures

Paramount Comments

Paramount stated that “it is unclear what process OIG followed in completing the Draft RADV
[Risk Adjustment Data Validation] Audit report” and that our audit “reflects substantial
deviations from the 2007 Participant Guide.”

Office of Inspector General Response

We are not required to follow CMS guidance and regulations governing RADV audits. Pursuant
to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to provide an
independent assessment of U.S. Department of Health and Human Services programs and
operations. We did not perform an RADV audit pursuant to the guidelines that CMS established
in its 2007 Participant Guide. Those reviews are a CMS function. We designed our review to
determine whether diagnoses that Paramount submitted to CMS for use in CMS’s risk score
calculations complied with Federal requirements. We based our findings on criteria in CMS’s
2007 Participant Guide.

Diagnosis Coding

Paramount Comments

Paramount stated that, like any other MA organization, it does not engage in ICD-9 coding.
Although Paramount acknowledged that it was responsible for the accuracy of risk adjustment
data submitted to CMS, it believed coding to be a provider issue. Additionally, Paramount took
exception to the fact that our audit “tested whether a medical record reflecting a diagnosis could
be found in the same year as an associated HCC,” stating that “a diagnosis is not necessarily
limited to a particular year.”



11
     75 Fed. Reg. 19749 (April 15, 2010).

                                                 9
Office of Inspector General Response

We agree that accurate coding may also be a provider issue. Nevertheless, Paramount, is
ultimately responsible for the accuracy of risk adjustment data submitted to CMS.

Regarding whether a diagnosis is not limited to a particular year, section 7.1.4 of CMS’s 2007
Participant Guide states that “The risk adjustment diagnosis must be based on clinical medical
record documentation from a face-to-face encounter, coded according to the ICD-9-CM
Guidelines for Coding and Reporting; assigned based on dates of service within the data
collection period .…” Therefore, diagnoses assigned to a beneficiary before or after the relevant
data collection period (in our case, CY 2006) are irrelevant for determining a beneficiary’s risk
score. Accordingly, we considered and analyzed the diagnosis data that Paramount submitted to
CMS during the CY 2006 data collection period.

Unsupported Codes

Paramount Comments

Paramount stated that it had identified discrepancies with our coding determinations and
included information on 41 HCCs as an appendix to its response. Paramount provided additional
documentation that was not provided to us during our fieldwork that it believed would support
these 41 HCCs. Paramount divided these discrepancies into three general groups. First, it noted
those beneficiaries for whom we concluded that (1) the risk adjustment data were invalid or
(2) there was an absence of medical records because there was no provider’s signature and stated
that we had not allowed Paramount to provide attestations. Second, Paramount listed specific
reasons it believed our coders came to incorrect conclusions based on the medical records that
Paramount had provided us. Finally, Paramount identified those HCCs that it believed were
supported by medical records that may not fully comply with CMS guidelines but nevertheless
may lead to a conclusion that the HCC was valid.

Paramount stated that it had “identified several more general problems with the OIG’s coding
effort.” For instance, Paramount stated that “it appears the coders the OIG used would compare
dates of service in the medical records submitted” and “if one date service supported a diagnosis,
but that diagnosis was not mentioned on other dates of service in the same record, OIG’s coders
would ‘disallow’ the diagnosis.” Paramount stated that this practice conflicts with the 2007
Participant Guide. Paramount also stated that “the Draft RADV Audit discusses the use of a
single medical review contractor that engaged in two rounds of review for HCCs that were
determined to be unsupported by the submitted medical records. But the 2007 Participant Guide
provides for two separate and independent contractors to review medical records (§7.1.6).”

Office of Inspector General Response

As stated previously, we did not design our review to be an RADV audit, and we are not required
to follow CMS’s RADV audit protocol. Although we did not have two independent contractors
review Paramount’s medical record documentation, we ensured that our medical review
contractor had an independent review process in place. If the initial medical reviewer identified

                                               10
discrepancies, another medical reviewer, independent of the initial review, performed a second
review. If the results of both reviews differed, the contractor’s medical director made the final
determination. If we found that medical records did not support one or more assigned HCCs, we
asked Paramount to submit additional records. Any additional records Paramount provided
followed the process described above.

Also, we accepted medical records Paramount provided in addition to the “one best medical
record.” All HCCs that were not validated during the initial medical review underwent the
second medical review. Finally, after we issued our draft report, we accepted and evaluated the
additional documentation that Paramount provided with its comments on our draft report. In
cases when (1) Paramount provided new documentation or (2) Paramount provided a new
explanation as to why the documentation validated the selected HCC, we submitted the
additional documentation to our medical review contractor for a third medical review.

We accepted the additional inpatient, outpatient, and physician records with CY 2006 dates of
service to help validate the 41 HCCs with which Paramount disagreed during the first 2 rounds
of medical review. Of these 41 HCCs, we accepted attestations on 10 HCCs and submitted the
remaining 31 HCCs for a third medical review. For the third medical review, our medical review
contractor followed the same protocol used during each of the first two reviews. Therefore, we
disagree with Paramount’s assertion that our medical review contractor considered only limited
data on medical records provided. Our medical review contractor considered all information on
medical records provided, including additional documentation that validated 10 of the 31 HCCs.
We revised our findings accordingly.

Signatures/Credentials

Paramount Comments

Paramount stated that our audit deemed 25 HCCs to be unsupported because Paramount did not
provide physician signatures or credentials. Paramount stated that we made this determination
without affording Paramount the opportunity to provide physician attestation as permitted by
CMS.

Office of Inspector General Response

We did not initially accept physician attestations because the 2007 Participant Guide,
section 7.2.4.5, and the 2006 Participant Guide, section 8.2.4.4, stated that documentation
supporting the diagnosis must include an acceptable physician signature. However, pursuant to a
2010 change in Federal regulations (42 CFR § 422.311), we accepted attestations and revised our
findings accordingly.




                                               11
No Documentation Provided

Paramount Comments

Paramount stated that our audit found 12 HCCs to be unsupported because Paramount did not
provide any documentation. Paramount stated that a “more accurate description of this situation
would be that Paramount was unable to obtain documentation from the provider.”

Office of Inspector General Response

Although Paramount was unable to obtain some documentation from providers, according to the
2007 Participant Guide, section 8.7.3, and the 2006 Participant Guide, section 7.7.3, Paramount
is ultimately responsible for supporting the risk adjustment data that it submits to CMS.

Sample Selection

Paramount Comments

Paramount stated that our draft report should have detailed the steps taken to ensure that the
sample was statistically valid given the “large amount involved and the small sample size.”
Additionally, Paramount stated that because the audit did not identify a single instance of
underpayment, there was a strong indication that either underpayments were ignored or the
sample was not representative.
Office of Inspector General Response

Our sample size of 100 beneficiaries provided a fair and unbiased representation of the 8,863
beneficiaries in our sampling frame. A sample of 100 beneficiaries is both consistent with our
established policy and sufficient to ensure valid sample results. Additionally, our medical
review processes considered the potential for underpayments. In five instances, our medical
reviewer determined that different diagnoses were appropriate, and we raised or lowered the
corresponding beneficiary risk scores.

Refund Recommendation Based on Unconfirmed Discrepancies

Paramount Comments

Paramount stated that the 2007 Participant Guide provides for payment adjustments only on
confirmed risk adjustment discrepancies. For this reason, Paramount believed that the estimated
overpayment did not comport with the 2007 Participant Guide.

Office of Inspector General Response

Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to provide
an independent assessment of U.S. Department of Health and Human Services programs and
operations. Accordingly, we do not always determine, nor are we required to determine, whether
our payment calculation and extrapolation methodology is consistent with CMS’s methodology

                                                12
or the 2007 Participant Guide. However, we considered written comments from other MA
organizations reviewed and modified our first recommendation to seek a refund only of the
overpayments identified for the sampled beneficiaries.




                                              13
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

SAMPLING FRAME

The sampling frame consisted of 8,863 beneficiaries on whose behalf the Centers for Medicare
& Medicaid Services paid Paramount Care, Inc. (Paramount), approximately $105 million in
calendar year (CY) 2007. These beneficiaries (1) were continuously enrolled under contract
H3653 during all of CY 2006 and January of CY 2007 and (2) had a CY 2007 risk score that was
based on at least one Hierarchical Condition Category.

SAMPLE UNIT

The sample unit was a beneficiary.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 beneficiaries.

SOURCE OF THE RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OAS), statistical software to
generate the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame from 1 to 8,863. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the total value of overpayments.
    APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                         Sample Results
                                     Number
                                         of
Sampling                           Beneficiaries
 Frame     Sample     Value of     With Incorrect   Value of
  Size      Size      Sample        Payments      Overpayments
 8,863       100     $1,342,254           44           $205,534



               Estimated Value of Overpayments
     (Limits Calculated for a 90-Percent Confidence Interval)

              Point estimate      $18,216,541
              Lower limit           13,572,796
              Upper limit           22,860,286
                                                                                   Page 1 of 2


           APPENDIX C: DOCUMENTATION ERRORS IN SAMPLE

                   A      Unsupported diagnosis coding
                   B      Missing signature and credentials
                   C      No documentation provided
                   D      Unconfirmed diagnoses

                                                                                    Total
                   Hierarchical Condition Category                 A   B   C   D    Errors
1    Specified heart arrhythmias                                   X                  1
2    Ischemic or unspecified stroke                                X                  1
3    Diabetes with neurologic or other specified manifestation             X          1
4    Ischemic or unspecified stroke                                X                  1
5    Vascular disease                                              X   X              2
6    Cardiorespiratory failure and shock                           X                  1
7    Angina pectoris/old myocardial infarction                     X           X      2
8    Vascular disease                                              X                  1
9    Breast, prostate, colorectal, and other cancers and tumors    X                  1
10   End-stage liver disease                                       X                  1
11   Specified heart arrhythmias                                   X   X              2
12   Chronic obstructive pulmonary disease                         X   X              2
13   Vascular disease                                              X                  1
14   Unstable angina and other acute ischemic heart disease        X                  1
15   Chronic obstructive pulmonary disease                         X                  1
16   Unstable angina and other acute ischemic heart disease        X                  1
17   Chronic obstructive pulmonary disease                         X   X              2
18   Cardiorespiratory failure and shock                           X                  1
19   Angina pectoris/old myocardial infarction                         X              1
20   Vascular disease                                              X                  1
21   Vascular disease with complications                           X                  1
22   Congestive heart failure                                      X   X              2
23   Breast, prostate, colorectal, and other cancers and tumors    X                  1
24   Unstable angina and other acute ischemic heart disease        X   X              2
25   Diabetes with neurologic or other specified manifestation             X          1
26   Diabetes with ophthalmologic or unspecified manifestation     X                  1
27   Septicemia/shock                                              X                  1
28   Septicemia/shock                                              X                  1
29   Bone/joint/muscle infections/necrosis                         X                  1
30   Major complications of medical care and trauma                X                  1
31   Breast, prostate, colorectal, and other cancers and tumors    X   X              2
32   End-stage liver disease                                               X          1
33   Diabetes with renal or peripheral circulatory manifestation   X   X              2
34   Severe hematological disorders                                    X       X      2
35   Breast, prostate, colorectal, and other cancers and tumors    X                  1
36   Cardiorespiratory failure and shock                           X                  1
                                                                                     Page 2 of 2

                                                                                      Total
                   Hierarchical Condition Category                A    B    C    D    Errors
37   Cardiorespiratory failure and shock                          X                     1
38   Diabetes with neurologic or other specified manifestation    X    X                2
39   Unstable angina and other acute ischemic heart disease       X                     1
40   Spinal cord disorders/injuries                                         X           1
41   Specified heart arrhythmias                                  X              X      2
42   Breast, prostate, colorectal, and other cancers and tumors             X           1
43   Diabetes with ophthalmologic or unspecified manifestation              X           1
44   Pancreatic disease                                           X    X                2
45   Inflammatory bowel disease                                   X                     1
46   Hip fracture/dislocation                                     X              X      2
47   Major complications of medical care and trauma               X                     1
48   Vascular disease                                                       X           1
49   Vascular disease                                             X                     1
50   Pancreatic disease                                                     X           1
51   Breast, prostate, colorectal, and other cancers and tumors             X           1
52   Severe hematological disorders                               X    X                2
53   Breast, prostate, colorectal, and other cancers and tumors   X    X                2
54   Breast, prostate, colorectal, and other cancers and tumors   X                     1
55   Diabetes with neurologic or other specified manifestation    X                     1
56   Cerebral hemorrhage                                               X                1
57   Breast, prostate, colorectal, and other cancers and tumors   X                     1
58   Vascular disease                                                  X                1
59   Major complications of medical care and trauma                         X           1
60   Ischemic or unspecified stroke                               X                     1
     Total                                                        46   16   10   4      76
                                                                                                                                    Page 1 of14
                     APPENDIX D: PAR.M:IOUNT                                         CO~NTS




CERTIFI ED _ kln1lK~ KECEJI'l' HQUES'l'E1J                                                                      .. ,."""
                                                                                                    .... PROMEDICA
                                                                                                    10'" "t·:~t.t" , ." ',,,




.\1r. l atuS   ( ~ Co,

K '~,"tOJ  1"'1><"'" {k"", 1l.! f", ..\oJ,t s<"j=
Deportment of Kc.>Ith &- Hum.., Seniccs
Off"" of "'wit Sariec~ Rq;ioo V
2J J North MielU~ Ill"""". Suite 1360
Chi""ll<'. IL 60601



lleal Mr. Co,'

11.', "",.;'.«1 , draft cop)' of tilt "Il,s\: MjLL!tmc nt lJot. Vali""",,, of J>.)mc ," M:>:I<; '"
Pm.mo""\ COl'. {m . fu! Calrod", Y'''' :!(lOr ("!.Ir.ft R~DV AuJ it") "r.oo :"'''' «,..Of I" ...
~..-
p""id<
        l en: 15 , 1010. (n Ihl O<W"
             ,o.
                                                  ,.,t"
                                                   Y""       mjl'<"'" ' h~ ""',.."..,,,nl C",". 10< . (,"p.,.moo",")
                 (kp.>rl""'''' "r II ~d ll h .00 II """,,, ~. """ Olli« " I' I ~"", ,, ... ("'".,aI. Otliuo of
A..J i, S .... i<= (,"Oil;', with i"         ","IT"'""   v>';n,i" JII " .,.~ 11",01(; """",,<""OIL)' p:<>vidc.J
1'.....  ,>0",,'~,ill, . 11 odJi,... .,1 IS d.oy. "' ""f"I' ,d       I'k.o", """<pi this 1<l1t, ,. ('oramDIJut" ,
""'1""""' "' ,I.< n,.ft ~ AIlV ,oJ it. Whi l, ",e I,",'. ",ole,,·_1 'n 0CUi 1 our "i<.., "n tho val idity
of II",    r"""  >ad ",.". .. l>I et"" r>f Lh'        ='""""'...,.,,,...  )" """,,1«1 h)' ,II< D,.ft IlAI)\' " "d it.
ei ,'.n tl", ti" '" Ii,,, i'"'""" . ,. 1 II", ","'e,"
                                                    i", y "".n",,,,i ,, ~ "'" • udi, I.."""J""", ""'" by tilt 01G,
tI ~~c
    '"") "",II \>(:       oJ~ih"",,1     i...... ",i..u by U"           Dr,~   UDV Audjt w)uol, ". ar, l"... n' ly
"""N. 10 oM",... ,

'n", ""_",,,.let,,,,, ;, I"" ,,<led           in    "''IX'''...   ~, tit. 01 (;', '''" ... <t.   Whit, ". arc "' ~~~ to
«<>pelOt,    witll this   '«1"'''_ the fact th, t booh the r,,,I IlA1W AI,It sad ,hi . l"u"" " i ll be """''''
J."-lOliciY.vail.ble     ,..,,,,,,,,,ily lim i"    tro "" pc 0( tk;, ""'i""'"         ",""""", ,ml ,,'ill ";,,, IPI"",   ; ~'" '"
W'Oh' "; '' ' ;" ...t,,, ;,,;,,, ,.;,, "I'J "",l '; .0""'" ~"" " I'~'''. " " ~, .,>" ""J "",0 k. 'holL","-"
Ie,. RAIlV ...1;1 pn><"'.' ..,d """I" ;n Ie,. "I'p"'r.i,." ~""'" C""''''l""",ly. 1'",..,..,_
                                                                    "
I"''''''''"' 'h" =!"""" ,, ",I. """""'og "'Y ,i~"" ''''Y .." wl.'Ih< , '" oot <>-"toiled '>erei" ,,",I
II ,;, ""P. ... ;, " ..do "ill""" l..j ..Ji« 10 " hoi.",' _,tioo. 1''''.'''''''''1 mlii,ht m.' c io ,he
CO"",,, of OIl .dmin'<t,ativ • ."".,. 1'" j udidall"oc.eoJlt~



A • • "",,!,OW.OO ...""-,, ,,1        """'<t. ;'
                                     i. _ lea, whol 1""<'" OlG f<>llowe>J in romv l<1m~ 11",
]),.,,1\ R~ DV Alto1i, ~ 'I'Pt. &00;1""",","",od in I _toor ~I by """"" of. ""'if~" ' i ~,,
I, " " ",,,t tJom UIG-, Chi<¥, om«, Whik Ih>I                         ,ot,,,,,>Od,,,,,,,
                                                              ",f<r<;n«d II>< &ooiC hn~\JO~'



~
~
 ~,--
         ... ........ . " ..
    _~"_B''''~'''''''''"O"~.''''''
                   ",              ,'                     ,," """ ." .....""
                                                                                                        Page 2 of 14




Mr. James C. Cox
July 30. 20 I0
Page 2


conlaillcd in Paramount's contraci with eMS and the OIO's regulatory authority to engage in
audits, it did not identify the process or procedures that would be followed in conducting the
audit. As of December 2008, eMS had cstablished a RADV audil process 8$ rcnl'Ctcd in
Module 7 of the 2007 Risk Adjustment Data Training for Medicare AdvDnlage Organizations
Parlicipnm Guide C'2007 I'anicipmlt Guide"). While the Draft RI\DV Audit refers 10 the 2007
Participant Guide, it does nol stale that Ihe DIG followed the procedures outlined therein. The
])rntl RADV Audil .~!<llCS that it wns performed in accordance with generally accepted
gove rnment accounting standards. However, as noted in more detail below, thc Dwn RAOV
Audit reneels substantial deviations from the 2007 Partic:ipam Guide, so it appears that the
procedures outlined there were nOI followed.

While the 010 was pcrfonning this audit, CMS updllted both Ihe procedures it rollowed fo r risk
adjustmcnt dma audits and the appeal process Medicurc Advulllage ("MA·") Organi7.ations had
avaihlble. The result of that updaling is now renected in 42 C.F.R. §422.31 1 which became
etrective on June 7, 2010. (See CMS Memo Regarding "Effecti ve dale of fina l Medicare Pan C
and D policy al\d technical changes regulation" dated April 30, 20 10, page J). Paramount
understands that ils administrative appeal rights are now delineated by this regulation. The l)ran
RAI)V Audit, however, is not structured in the manner provided by § 422.3II(b) (detlliling
payment adjustmen t to be made, timeframe for adjustment, nnd a description of apJ>Cal rights).

Given this context, Paramount would request that 010 elarify whether the Dran Audit Repon is
intended to be a product of the process outlined in the 2007 Panieipant Guide. If 0[0 intended
\0 follow the 2007 Panicipant Guide, the RA DV audit needs to be brought into compliance with
its t<.:nns. If 0 10 intended to follow some other Il roct:cJure or process, it should identify whllt that
is and clarify that il is not following the ({A DV audit process outlined in the 2007 Participant
Guide. Additionally, if Parnmount is now required 10 pursue any administrati ve appcallhrough
the regu lations eOeclive June 7. 2010, 010 should revise the Dmfi Audit Report to bring il into
compliance with the requirements outlined in §422.3 11.

Diagnosis Coding

Like any olher MA organization, Paramount docs not engage in ICD·9 coding. lnstelld,
Parnmount n.-ccivcs thm coding from providers. The Dran RADV Audit quotes a regulatory
requirement that Parnmount (as an MA organization) submit risk adjustment datu to C MS. !lut
the Draft RADV Audit rnils to neknowlcdge that Paramou nt (like every other MA organi7.alion)
is rc(luircd to obtain that data from providers. Indecd, the very SmllC regUlations that were
quoted in Ihe Draft RADV Audil, obligatcs Paramount to obtain risk adjustment data (including
ICD·9 coding) from providers. 42 C. F.R. §422.310{dX3) (··MA organi7.ations must obtain the
risk adjustment datil required by CMS from the provider, supplier, physician or other pr.lelitioner
Ihat fumished the item or service.") Moreove r. MA or~rlllizations are prohibited from ultering
the diagnoses reported to them by providers. As H pnlClical maller, prompt payment
                                                                                                          Page 3 of 14




Mr. James C. Cox
July 30, 2010
Page)


requirements preclude MA nrganizations from double chcding provider coding prior to
payment.

While Paramount is responsible for the accuracy of risk adjustment dala submincd 10 eMS, the
source of thai data is necessarily Ihe providers. There was no indiciltion in the Dmli Audit
Report lhat I'aramomll inaccurately reported any daln that it Imd n~ccivcd from providers. The
audit rcllccted by Ihe I)rl1l\ Audit Report was not designed 10 d(..1crminc whether Parmllo unt has
access 10 a provider's medical records necessary \0 support the diagnosis submitted for risk
adjustments. (As provide by §8.7.3 orlhe I'articipmlt Guide.) Rather, it WtlS to dClcnninc if that
diagnosis could be supported by "Orte" medical record su pplied by II provider.

To the exlent the Draft Audit Report concluded thut $(Jmc providers may not havc been uble to
j)rovide the "one" medical record neeeSs.1ry to support their ICD-9 coding. Ihm is fundamentally
an i51me for thc providers. While Paramount is required to acculUtel y report the ICD-9 coding it
receives from providers to CMS, if DIG is ehallengins the accuracy of the provider coding, that
is more nppropriatcly addressed direc tl y with the providers. These Slime providers undoubtcdly
submit diagnosis codes to multiple MA organizations. Therefore, imposing u requirement on
each MA organization to separately instruct providers on coding would lead to the potential for
contlic1ins instnlctions. Moreover. providers submit IC[)·9 codes to bolh MA organizations lind
to fl.oc for service Medicare. If providers evidence codinS issuc:<:, that would also present issues
for the manner in which that particular provider codes in fcc for service claims. Conscquently,to
the cxtent !l provider requires training or instruction in coding, CMS and its Fiseal lntennediaries
lire in n !llr superior position to provide tor that.

At the same time, the lIudit reOl.'"Cted in the Draft Audit repon tested whether a medical rt.'"Cord
reneeting a diagnosis could be found in the same year as an IIssociutcd BCC. Ilowcvcr.
diagnosis is not nccC!SS.'l ril y limited to a particular yea r. It is possible th.1l a diagnosis supporting
an I ICC was made in a prior year bUt lhm would 1I0t be reflected in the audit results as the OIG
limited the medical records sought to lhe year in queslioll.

Unsupported Codes

The discrelllUlcil.:s with the OIG's coding detemlinations which Paramount has identified to dllle
are listed in Appendix A (auuchcd). Those discrcpl.U1cies IIrc di vided into three gencral groups.
First, we havc noted tho.~e beneficiaries where the DIG concluded either that the risk adjustment
datu \Vus invalid or that there was an absence of medical records based on the absence of a
providers' signature. As detailed below, O IG made these dclemlinations without allowing
I'ur"mount to provide al1cstations. Second, we have listed specific rellsons we believe that the
coders OIG u.~cd came to the wrong conclusions ba...cd on the mt:dical records submiucd.
Finally, Arpcndix A identifies those       nccs which lire su pported by medical records received
                                                                                                 Page 4 of 14




Mr. James C. Cox
luly 30, 2010
Page 4


from providers that may 1101 fully comply with eMS guidelines, QuI nevertheless may evidence a
conclusion that the I-ICC a~socialed with the beneficiary was valid.

[n completing Appendix A, Pamlllount identified several more general problems wi th the 0 10 ' s
coding cOort. For instance, it appears thm the coders thc OIG used WQuid compare dates of
service in the rncdicfli records submitted. Thus, if one date service supported a diagnosis, bUI
that diagnosis was not mentioned on other dales of service in the same record, 010's coders
would "dislIllow" the diagnosis. This connicts wilh the 2007 Participant Guide (§7.1A "The
coders that arc hired 10 review the medica! records ... will rlol search beyond the dale orservice
identified by the MA organiJ'lIt ion ror the rev iew." ) Mo reover, the process O[G used ror
reviewing medical records docs not comport with the 2007 PartieiplInt Guide. Specifically,lhe
Dralt RADV Audit discusses the use of a single medical revie w contractor thflt engllged in two
rounds of review for HCCs thaI were determined to be unsupported by the submitted medielll
reco rds. But the 2007 Participant Guide provides for two separate and independent contractors
to review medical records (§7.1.6).

Signature~Credentials


The Dralt Audit Report asserts that 25 BCCs were unsupponed because Paramount did not
provide physician signatures or credentials. That determination was made without allowing
Paramount an opponunity to provided atlestations from the physicillns. Although CMS permits
MA organizrltions to provide such allestations during RA DV allrlits (42 C.F.R. §422.311(c)(I»,
OIG refu!;cd to consider     such               here. On December 21 , 2009                   of
                                               , O[G) 10 inquire as to whethe r Paramount could
submit altestations.                    !      that same day stating: " we arc not considcring
a[\e~tations for the                    is inconsiste!\1 both with CMS's practice under Ihe 2007
Participant Guide and with the current RA DV audit and uppcul process.

l3ecause the determinations with respect to physician signatures were made without allowing
Paramount to provide !lttestations, these de\enninations should not be considered valid nor be
included in the final report. To the extent O[G continues 10 assert a signaturcicredentialing
problem with any orthe sampled HCCs, Paramount should be allowed to provide al\es\(I\ions.

No Doeumemation Prov ided

The Draft Audit Report asserts that thcre were 12 ]-fCCs tha t were unsupported because
·' I'arnmount did no! provide any documentation." A more accurate description Oflhis siluation
would be that Paramount was unable to obtain documentation from the provider. The inability to
secure these records from providers may well be the result or \he fact that the OIG' s audi t
conflicted with RA[)V audit procedures outlined in the 2007 Participant Guide in IWO
fundamental ways.




     Office of Inspector General Note-The deleted text has been
     redacted because it contains personally identifiable information.
                                                                                               Page 5 of 14




Mr. James C. Cox
July 3D, 2010
Page 5


First, the audit procedures for obtaining medical records oUllincd in §7.2.2.3 of the 2007
Participant Guide provide that any RADV audit is supposed 10 facilitate the MA organizations
acquisition of medical records from providers. The entity conducting the audit is supposed 10
provide the MA organb'~1lion wilh a "comprehensive instruction package" that at a "minimum"
includes:

   •	      Detailed instructions for requesting records from pro~idcrs and submitling 10 the Ive
           [inilial validation contractor];
   •	      Guidance and besl pmctices to further assist organizations with the request process;
   •	      eMS letters addressed to providers describing the overall risk adjustment data
           validation approach;
   •	      !J[PAA (,1ct shed to discuss I-[[I'AI\ privacy;
   •	      CMS sample request [etter to providcrs; and
   •	      Covcrshecl for each enrollee HCC.

As evidenced by this minimum list, MA organizations are supposed to be given documentation
that would allow them to demonstrate to providers that the request for medical records comc~
from CMS. It can be assumed that providers will be more responsive to 11 request fro111 the
government than they might be to a request from Paramount. Yet, in conducting the survey
underlying the DraB RADV Audit, the O[G did not provide this material to Paramount.

Second, the proecss outlined for RADV audits in the 2D07 Participant Guide
reimbursement for the medical records submitted (participant Guide §7.
OIG refused any reimbursement and attributed any expense to the "eo~,~,~~~~~
lhe government:· (See email dated May 19, 2009 from                       ~
At this point, PltnllnOUn\ cannot detennine which of
identities as lacking documentation did so beenusc OIG failed to follow the cstablished
procedure for requesting lind p..1ying for those records in the course ofa RADV audit.

~ampk Selection


The Draft RADV Audit recommcnds that Paramount refund $19,324,342 10 CMS by
extrapolating the results of a snmple limited to 100 bencficiarics. Given the large amount
involved and the small sample siZe, the Dmfl Audit Report should have detailed thc steps taken
to ensure thaI the sample was statistically valid. No such details are provided.

The Draft RADV Audit only identified HCCs which OIG now asserlS were overpaid. In
discussing the RADV audit process gcncfillly, CMS represented that it would not be limited to
simply identifying HCCs that may have becn subject to overpayment, but would include
underp,'1ymcnts as well. 75 Fed. Reg. t9746 (April 15, 2010), (" Our RADV mldit policy does
account for ooth undcrpayment~ and overpayments.") Doth fairness and logic dictate that an




    Office of Inspector General Note-The deleted text has been
    redacted because it contains personally identifiable information.
                                                                                                                     Page 6 of 14




Mr. Jumcs C. Cox
July )0, 2010
Page 6


aCCUrI\lC audit of Paramount's payment experience (like account of instances of underpayment.
YCl lhc Drat! RADV Audit failed to identify a single instance ofundcrp.1ymcnl. This provides a
strong indiclilion that either underpayments were ignored or that the sample used is not
representative. This deficiency may also be the result of the fact that the Draft RADY Audit
looked only at beneficiaries with Bees. Excluding all bcnctici.1rics without Bees ncccsSllrily
elimirmlcs a large potential pool of beneficiaries for whom Parnmounl might have been
underpaid.

Refund Rt!cOmmcnd.1tion llased on UncQnfinne;d Discrs;Pimcies

TIrc 2007 I'Ilr1icip.1tion Guide provides that "payment ndjustmcnls arc based on confirmed risk
adjustment discrepancies" (§7.1 .4; emJ1hasis supplied). The LJraf! RA[)V Audit purports to
confiml adjustment discrepancies for 56 beneficiaries enrolled in Pammount's Mt.'dieare
AdvlIl\lage plan during calendar yea r 2007.1 Yet the overpayment "estimate" contained in the
Dr"f! RADV Audit cover all beneficiaries enrolled with PnmmOlmt Ihat year who had IIny 11CC
adjustmen t (more than 8,800 beneficiuries). There are no eonfimled adjustment discrepancies
beyond those the Dmft RADV Audit purports to have found for 56 beneficiaries. Rather, the
estim,llcd overpayment 01"$ 19,324,342 in the Draf1 RADV Audit is based Oil an extrapolution
t"rolll those results. As this is not b.1sed on eontimled discrepancies, it does not comport with the
terms of the 2007 Participant Guide and should be removed from the final report.

The only refund that could legitimately be requested would have to be based on continned
discrepancies that were found after a process that comports with the requirements of the 2007
Participant Guide (and arguably the new regulations). As noted above, the $277,486 in
purported overpayments reflected in the Draft Audit Report is not a product of such u process.
l'<Iramount believes that number will be greatly reduced once it is adjusted to both reflect
confimled discrepancies and a process that follows Ihe 2007 Pllrtieipant Guide which the OIG
insists applies.

Recommelldfltions

The Draft RADV Audit makes three recommendations. I'aramounl would respond to chose as
follows:

11\(.' first recommcndution relating to making a large refund payment to 1he government lmd is
addressed in dctailllbovc.

Paramount hilS commenced and strengthened severnl initiatives 10 address the second and third
rt:commendations TCgnrding moni1oring effcctiveness of I'aramount's policies and ensuing

           I As noted in more delait above, P~ramo\lntlak<:s issue with these purported discrep~n,ies. I'ummoum. 

Ihu 5, lakes iss ue with the ~xtr~p<ltation baSl.."<.l on lhcm as wetl. 

                                                                                                 Page 7 of 14




Mr. James C. Cox
July 30. 2010
Poge 7


compliance with the 2007 l'llrlicipanl Guide. Through the usc Ofp<lfHime resources, I'Ul'llrllOUlll
began reviewing medical records in 2008 to support the Risk Adjustment ("RA") process. In
January 2009, Paramount implemented an RA learn 10 review mcdicaln.."'Cords full time, 3S well
as 10 provide physician education relative \0 the RA process. The learn included II Manager, who
is an cX)'ICrienced regiSh!rcU nurse, and three certified medical coders. Management is currently
TCviewing the breadth and scop;: of this team 10 ensure more accurate diagnosis coding and
ultimately proper I-ICC assignment. Management is also evaluating the need for additional
resources \0 further enhance the results of this importllnt monitoring process. Specific changes
being evaluated include, but are not limitl'<i 10:

   •	      Moving to 100% physician office chart audits;
   •	      Reviewing PCP offices on a year-around basis;
   •	      Development of an audit dmabase;
   •	      Collabor.lte with providers in the development of a comprehensive U & r fonn
           (diagnosis spceific) for inclusion in the medical record;
    •	     Purchase of software to facilitate conversion to ICD 10;
    •	     Identify additional resources for scanning medical records currently being done by
           coders;
    •	     Provide team wi th access to all medical documentation systems available to hospital
           coders to assist with I-ICC tracking;
    •	     Code all PCP medical records (specinlists as needed) for under 65 dis.1bi lity
           members:
    •	     Monitor claims submissions for new mem bers for cOlnplcx 1md specialty coding: and
    •	     Conduct on-going data mining.

Paramount is also collabomting wilh affilimed physicians and facilities to improve the flow,
aeeunlcy and timeliness of infonllation. Improved electronic medical rt.'cord access from
providers would advnnce both data integrity and team/office efficiency. l'roMediea Physician
Group ("'1'1'0") has its own Illedicnl record monitoring process. Pnramount and Pl'O arc
discussing ways for them to expand their currcnt internal complillnee reviews of physician
records to incorpomtc nsscssments of documentation impacting HCC results for I'ammount.
Assurniug that synergies can be guined Ihrough levemging this process. the Paramount RA team
could focus more lime on unaffiliated providers. In 1lddition, Paramount wi ll collaborate with
I'roMedicn 10 develop a more targeted und comprehenSive program 10 cducalo:: physicians on the
importancc of accurate diagnosis coding.

The I'roMcdica Health Syslem Audit and Compliance Dcpartmer.t (" Internal Audit") will also be
engagl.'tl to provide an added layer of audit ovcrsight regarding Paramount' s RA process.
Internal Audit and mnnagemcnt will work logcthcr to rc-dcsign the an nllal Insurance Risk
Assessment to identiry more specific processes, such as !-ICC assignment. Internal Audit will
also be evaluating the need for additional resources to provide more conccntrHtcd focus on
                                                                                                 Page 8 of 14




Mr. James C. Cox
July 30, 2010
Pllge 8



Paramount. Beginning in 20t 1, [nlcmlll Audit will incorporate 1-2 audits of Pammount 's
redesigned progrum.        The program 's effectiveness will be evaluated wilh future
rccornrncmi;llions to he made, contingent on audit results.

In conclusion, Paramount would respectfully request that any film! audit issued by 0 10 comport
with the requirements [or a RADV audit detailed in the 2007 Parlicirunt Guide. As the Dndl
RAOV Audit we rece ived on June [5, 2010, docs not do so, l'al1lll1ol1111 would slIggestlhal it be
withdrawn and rc!ormulated. As il did wilh respect to the O[G's original audit, Paramount is
both ready and willing to provide any data and assistance required to complete that process.

Very truly yours,


~¥~
Jclfrey W. Marti n 

Vice President, Operations and Financc 


Auachmcnl (Append ix A)

cc:




  Office of Inspector General Note-The deleted text has been
  redacted because it contains personally identifiable information.
Page 9 of 14 





        ,




,
,
Page 10 of 14 





         ,

Page II of 14 





         •

         Page 12 0f14




    I
    ,•




!
u
i••.!!
il
,
f                •
Page 13 of 14 





         ,

Page 14 0f14




        •

